IN THE
SUPREME COURT OF UNITED STATES
October Term 2020
NdCy /

3-4^

Qjy

/II/•-

Kenneth Ray Sheffey
Petitioner
r

-Against-

!:;

p V\ n

I

\ J

I

J

State of Iowa, Randy Gibbs, et al
Respondents

FILED
SEP 3 1 2020

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
OFFICE OF THE CLERK
SUPREME COURT, U.S.
FOR THE 8th CIRCUIT
&
A MOTION REQUESTING APPOINTMENT OF COUNSEL,
REQUEST THIS CLOCK BE TOLLED, REQUEST TIME EXTENSION
AND SEEK PERMISSION TO AMEND THIS PETITION
THIS INSTRUMENT IS NOT COMPLETE AND
PETITIONER IS ILLITERATE WITH LIMITED ASSISTANCE

Petitioner Kenneth Ray Sheffey
P.O. Box 316
Fort Madison, Iowa 52627

RECEIVED
SEP 2 8 2020
•FFICE OF THE OLERK
SUPREME COURT. U !L

RECEIVED
NOV - 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTIONS PRESENTED
I.

II.

Did the lower court violate the protections under the Iowa and
United States Constitutions by denying Petitioner, an illiterate
prisoner, both legal assistance and assistance from another prisoner?
Should the US District Court of Iowa have investigated Petitioners
claims of a fraudulent filing of his 2254 by another prisoner without
the actual filers knowledge rather than the court making Petitioner
who is pro se, illiterate and Indigent investigate this matter when
the court lost his case file?

1 u

2

PARTIES
The Petitioner is Kenneth Ray Sheffey, a prisoner at Iowa State Penitentiary in
fort Madison Iowa. The respondents are Randy Gibbs, the Warden of Iowa
State Penitentiary and Governor of the state of Iowa Kimberly Reynolds.

3

TABLE OF CONTENTS
Questions Presented...........................................
Parties....... ..........................................................
Table of Authorities........................ ....................
Decisions Below...................................................
Jurisdiction..........................................................
Constitutional and Statutory Provision involved...
Statement of case...............................................
Basis for federal Jurisdiction................................
Reasons for Granting the Writ.............................
A. Conflict with Decisions of other courts...
B. Importance of the Questions Presented
C. Conclusion............................................

2
2
4

4

TABLE OF AUTHORITIES

Bounds v. Smith, 430 U.S. 87,828,97 S. Ct. 1491, 52 L.Ed.2d

6

5

DECISIONS BELOW:

6

JURISDICTION
The judgment of the United States Court of Appeals for the Eighth Circuit was entered
through the mandate issued September 9th 2020. An order denying a petition for three panel
rehearing was entered on August 31st 2020 and a copy of that order is attached as Appendix: A
to this Petition. Jurisdiction is conferred by 28 U.S.C. § 1254 (1)

7

CONSTITUTIONAL AND STATUARORY PROVISIONS INOLVED

8

STATEMENT OF THE CASE
The Applicant Was Denied The Right To Assist His Counsel In His Defense;
The Applicant Was Denied Effective Assistance Of Counsel;
Nature of the case:
This is an appeal by Defendant-Appellant, Kenneth Ray Sheffey from the
original order post-conviction relief filed February 12th, 2018, in the District Court
for Scott County, Iowa, from the order dismissing said action by the Honorable
Chief District Judge, Marilita A Greve.
Course of proceedings: On February 12th, 2018, Appellant Sheffey filed a
post-conviction (2254) application, in that he is and was incompetent and
illiterate. All of this is new to Sheffey. Sheffey is in need of an appellant defense
and an interpreter. This is obvious in the case of Sheffey, Scott County Cause No.
(s) L06169001; L06169002; and L06169003. This is why Sheffey should not be
time barred, because of his incompetency and illiteracy. Sheffey was in
confinement and separated from his lawyer and the Courts outside of Iowa from
September of 1981 until 2013, when he was returned to Iowa. At no time did any
of the other states provide legal assistance for Sheffey's Iowa criminal charges.
This remained as new to the applicant. The applicant could not have assisted in
any way with his defense, or his appeals.
There are lawyers and interpreters that deal with illiteracy and
incompetency. Applicant Sheffey knows the rules of procedure are not waived
because Sheffey is unrepresented. By reading old letters to the applicant Sheffey,
, there are three issues. The Trial should never have started. There were pretrial
orders in discovery. These were Orders that should have been followed. The State
9

was ordered three times to disclose. A competent Judge would not have let the
argument occur in front of a jury.
(1) A competent lawyer for the applicant would not have started the trial
without a defense. There is not much to say about the respondent, except
he was incompetent and that a hearing will show that all the Applicant says
is in the transcripts.
(2) Up until this court and the filing of the motion to strike by the respondents,
and the court's ruling on that order. The applicant feels that he has been
treated by incompetence, and that the lower court never even read the
argument. It is known by the respondent that Sheffey is illiterate and
incompetent, and he has been an out of state prisoner, and has not had
access to the courts for 40 years or more. Applicant has been in the custody
of the respondents since 7/24/1974. See Bounds v. Smith. 52 L.Ed.2d 72,
430 U.S. 817.

Facts; The applicant is illiterate and incompetent see Appendix: B attached
to this petition. Persist as best as he can. The fact is the respondent has blocked
the applicant from the courts, has had the knowledge of the applicant's illiteracy
and incompetency. A hearing in Scott County would show all of the issues to be
true.
1. On 08-04-2020 Petitioner Sheffey filed with this court a motion to stay the
proceedings to toll the clock on the Appeal until the Eighth Circuit Court of
Appeals could hear the Rule 60 B Motion
2. On August 31, 2020 the Eighth circuit denied Petitioners Rule 60 motion
finalizing this court's decision as the Rule 60 b motion being Successive,
10

without ruling on the key issue of Sheffey's illiteracy and/or ability to
proceed without assistance.
3. Petitioner then appealed the 2254 to the Eighth Circuit Court of Appeals
and request this court proceed with this request.
4. Petitioner reminds this court that he has never filed a 2254 Petition in
1987.
5. Petitioner claims fraud if any such petition exists.
6. The eighth Circuit exposed the US District Court of Iowa's misleading order
denying Sheffey of the most basic assistance through a prisoner acting as
scrivener to assist him. This issue is best read through separate orders the
US District Court Of Iowa's opinion on their 11-14-2018 order which states:

"Upon consideration, the State's motion to
strike is granted, and the appellant's September 4,
2018, amended proof brief is stricken because it
appears to have been written by another inmate.
An inmate's preparation of legal documents on
another's behalf may constitute the unauthorized
practice of law. See, e.g., Iowa Supreme Ct. Comm
'n on Unauthorized practice of Law V. Sukllins, 893
N.W. 2d 864, 873 (Iowa 2017). Within 21 days of
the filing date of this order. The appellant shall
prepare and file his proof brief and designation of
parts on his own behalf"
The lower court makes it clear they are aware Appellant is illiterate through state
document and other evidence provided to the lower court from this Institution. For these
reasons the court knew Sheffey had assistance because Petitioner couldn't have prepared the
brief because of his illiteracy. The US District Court of Iowa ruled against him in this matter.

Additionally, the lower Court took the only assistance Sheffey had through their
11-14-2018 order which made no inmates want to assist him in fear of retaliation.
11

The above or from the US District Court of Iowa is clearly in conflict with the 8th
Circuits 07-22, 2020 order which States:
"... ("[A] party does not practice law when
he or she merely assumes
'scrivener.'")."

the role

of a

Preservation of Error: Error was preserved by the District Court's ruling
dismissing the applicant's post conviction relief on March 15th, 2018, when it did
so without appointing counsel to investigate all claims by the undersigned, and
amending the application pursuant to Iowa Code §822.8 respectively.

Standard of review: "Because there is no constitutional right to counsel in
post conviction cases, we review the appointment of counsel for an abuse of
discretion." Wise v. State. 708 N.W.2d 66, 69 (Iowa 2006).

Argument: The undersigned filed a second application for post-conviction
relief on February 12th, 2018. (See Scott County Docket No. PCCE129936 on said
date).

In said application, the undersigned made it clear to the Courts that he had
a "5th grade education" and was "illiterate," in addition to stating clearly, "will go
into further details in my pro se brief and after I get a lawyer to help with the
required motions." (See Scott County Docket No. PCCE129936 filed "Application
for Postconviction" relief filed on 2/12/18 at Pg. 2-3).

12

It was made clear to the court, that the applicant was unable to properly
present his claims to the Court for postconviction relief, and required the
assistance of counsel due to the inability of his indigency, coupled with his lower
level education, and illiteracy to properly present his claims for relief. All
combining to present an insurmountable obstacle to overcome in seeking relief
inter alia post conviction without the assistance of court appointed counsel.

The appellant asserts that the District greatly erred when it dismissed his
application without first appointing counsel to assist him in preparing and
presenting viable claims.

To begin with, the appointment of counsel, aside from including all viable
issues in an amended application pursuant to Iowa Code §822.8, it would of
assisted the district court and aided the district court, and benefited the
applicant.

The Iowa Supreme Court stated, "In general, counsel should be appointed
because "it benefits the applicant, aids the trial court, is conducive to a fair
hearing, and certainly helpful in the event of an appeal." Furaison v. State. 217
N.W.2d 613, 615 (Iowa 1974)." Armstrong v. State. 868 N.W.2d 881.

Additionally, The District Court itself acknowledged Appellant's indigency
status. In Wright v. Cedar Falls. 424 N.W.2d 456 at 459, the Court held, "Under
section 663A.5 an indigent petitioner is entitled to counsel to challenge a
conviction at the county's expense."
13

"The Iowa Supreme Court has recognized a statutory right to counsel in
chapter 822 proceedings and a corresponding statutory right to the effective
assistance of postconviction counsel. See Dunbar v. State. 515 N.W.2d 12,15."
Moore v. State. 902 N.W.2d 590.

The complexity of the issues that the applicant wished to presented, taking
into consideration his "5th grade education" and "illiteracy," was more than
sufficient to warrant the appointment of counsel. See generally Phillips v. Jasper
County Jail, 437 F.3d 791, 794 (8th Cir. 2006) ("The relevant criteria for
determining whether counsel should be appointed include the factual complexity
of the issues, the ability of the indigent person to investigate the facts, the
existence of conflicting testimony, the ability of the indigent person to present
the claims, and the complexity of the legal arguments."); Edgington v. Missouri
Dep't of Cprr., 52 F.3d 777, 780 (8th Cir. 1995), abrogated on other grounds, Doe v.
Cassel, 403 F.3d 986, 989 (8th Cir. 2005), (reviewing factors to consider when
appointing counsel in pro se civil case). See also War&yJSmith, 721 F.3d 940 (8th
Cir. 2013).

The Iowa statute that appoints counsel to indigent applicants expressly
includes criminal proceedings and postconviction proceedings... The right to
counsel is only as to the criminal proceeding [and postconviction] that is
contemplated with the filing of the sentence. State v. Dudley. 766 N.W.2d 606,
618 (Iowa 2009); see also StatejAloj/e, 670 N.W.2d 141,147 (Iowa 2003). It is

14

relevant to point out that the appellant's postconviction was contemplated and
filed to seek relief on the criminal sentence.

Additionally, even with the District Court summarily dismissing the
appellant's application without first giving the assistance of counsel, which
appellant requested in order to amend his application properly due to his limited
education and illiteracy, the District court erred a second time when it denied the
appellant appointment of counsel to prosecute this appeal.
Even in Furaison. which the District Court in this case relied upon to dismiss
the claim and not appoint appellant counsel, when the District Court dismissed
Furgison's application for post conviction relief, upon request. Furaison WAS
given appointed counsel to represent him in the appellate proceedings. Furaison.
213 N.W.2d 613 at 615.

As such, the appellant respectfully asserts that the district court erred and
abused its discretion when it first refuse to appoint the appellant counsel to
investigate his claims, when it warranted doing so. Secondly, when refused
appellate counsel, to assist with this appeal it forced the appellant to seek the
assist of "jail house lawyers" within the prison system.

7. Petitioner reminds this court that petitioner is illiterate & pro se and again
request this honorable court appoint counsel to assist in preparing the
documents this court requires. Currently Petitioner has assistance from a
scrivener but without legal assistance.

15

Request Appeals Permission to Have the Writ Heard Under
The Anti-Terrorism and Effective Death Penalty Act (AEDPA) 28
U.S.C. § 2244(b) (3) (A) & FRCP Rule 22B or have the case sent
back to Scott County.

/

Kenneth Ray Shefrey-Friday/September>ir2020
P-O* Box 316
' 7
' /7
Fort Madison Iowa 52627

^

• Clerk of court please serve all parties this document

Notary
U'4 ~M?f

Abfc'y

1

16

